<html>
<title> - A REVIEW OF RECENTLY COMPLETED UNITED STATES ARMY CORPS OF ENGINEERS CHIEF'S REPORTS, PART 2</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 A REVIEW OF RECENTLY COMPLETED UNITED STATES ARMY CORPS OF ENGINEERS 
                        CHIEF'S REPORTS, PART 2

=======================================================================

                                (114-41)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2016

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
        
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-215 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
        
        
        
        
        
        
        
        


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
MARK MEADOWS, North Carolina         RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
ROB WOODALL, Georgia                 ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 LOIS FRANKEL, Florida
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   JARED HUFFMAN, California
CRESENT HARDY, Nevada                JULIA BROWNLEY, California
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
MIKE BOST, Illinois

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

CANDICE S. MILLER, Michigan          GRACE F. NAPOLITANO, California
DUNCAN HUNTER, California            DONNA F. EDWARDS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              LOIS FRANKEL, Florida
JEFF DENHAM, California              JARED HUFFMAN, California
REID J. RIBBLE, Wisconsin            EDDIE BERNICE JOHNSON, Texas
THOMAS MASSIE, Kentucky              ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
TODD ROKITA, Indiana                 ELIZABETH H. ESTY, Connecticut
JOHN KATKO, New York                 ELEANOR HOLMES NORTON, District of 
BRIAN BABIN, Texas                   Columbia
CRESENT HARDY, Nevada                RICHARD M. NOLAN, Minnesota
GARRET GRAVES, Louisiana             PETER A. DeFAZIO, Oregon (Ex 
DAVID ROUZER, North Carolina         Officio)
MIKE BOST, Illinois
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES

Major General Donald Jackson, Deputy Commanding General for Civil 
  and Emergency Operations, U.S. Army Corps of Engineers

    Testimony....................................................     4
    Prepared statement...........................................    30
    Responses to questions for the record from Hon. Todd Rokita, 
      a Representative in Congress from the State of Indiana.....    34

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Doris O. Matsui of California...............................    28

                       SUBMISSIONS FOR THE RECORD

Hon. Bob Gibbs, a Representative in Congress from the State of 
  Ohio, request to submit the written statement of Hon. Dennis 
  Watson, Mayor of Craig, Alaska.................................    37

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 A REVIEW OF RECENTLY COMPLETED UNITED STATES ARMY CORPS OF ENGINEERS 
                        CHIEF'S REPORTS, PART 2

                              ----------                              


                         TUESDAY, MAY 17, 2016

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:08 a.m., in 
room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. The Subcommittee on Water Resources and 
Environment, a subcommittee of the Transportation and 
Infrastructure Committee, will come to order.
    Today we are going to review the recently completed United 
States Army Corps of Engineers Chief's Reports that were 
submitted since our last hearing. Two years after the enactment 
of the Water Resources Reform and Development Act of 2014 
[WRRDA 2014], we are returning to the regular business of 
enacting a Water Resources Development Act, known as WRDA, 
every 2 years, a commitment that Chairman Shuster and I made. 
WRDA bills address the needs of America's harbors, waterways, 
locks, dams, and other water resources infrastructure to 
strengthen and ensure the Nation's economic competitiveness.
    Today we are holding a hearing to review four Army Corps of 
Engineers Chief's Reports that have been delivered to Congress 
since the subcommittee's previous hearing on February 24th of 
this year. We intend to review these critical documents to 
ensure they balance critical investments in infrastructure 
along with environmental protections.
    Additionally, last Friday the Corps of Engineers delivered 
to Congress three Post-Authorization Change Reports, 
recommending modifications to ongoing construction projects at 
Blue River, Missouri; Turkey Creek, Missouri; and Paducah, 
Kentucky. And I think also in the general's comments, there are 
some other reports that are under executive review that we will 
have discussion about, too.
    The Corps of Engineers constructs projects for the purpose 
of navigation, flood control, shoreline protection, 
hydroelectric power, recreation, environmental protection, 
restoration and enhancement, and fish and wildlife mitigation.
    The Corps of Engineers planning process considers economic 
development and environmental needs as it addresses water 
resources challenges. The planning process addresses the 
Nation's water resources needs by exploring a full range of 
alternatives in developing solutions that meet both national 
and local needs.
    The four Chief's Reports and three Post-Authorization 
Change Reports we are discussing today are the result of this 
rigorous planning process. These projects are proposed by non-
Federal interests in cooperation and consultation with the 
Corps. All these Chief's Reports and Post-Authorization Change 
Reports, while they are tailored to meet locally developed 
needs, have national economic and environmental benefits. These 
Chief's Reports and Post-Authorization Change Reports address 
the mission of the Corps and the balance of economic 
development and environmental considerations equally.
    Since these Chief's Reports and Post-Authorization Change 
Reports were completed and submitted to Congress subsequent to 
submission of the ``2016 Report to Congress on Future Water 
Resources Development,'' we would like to spend some time today 
to just take a closer look at them.
    I know this is a busy week for the Corps, as the Chief of 
Engineers, General Bostick, is retiring. So I am pleased that 
General Jackson is able to join us today for this important 
hearing. And I wish General Bostick all the best in his 
retirement.
    At this time, before I turn it over to my ranking member, I 
ask unanimous consent that written testimony submitted on 
behalf of Dennis Watson, the mayor of the city of Craig, 
Alaska, be included in this hearing's record. It will be in 
your notebooks. If there is no objection, without objection, so 
ordered.
    [The written testimony of Mr. Watson is on pages 37-51.]
    Mr. Gibbs. And at this time I yield to my ranking member 
from California, Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman, and I apologize 
for being a little late. And thank you for holding today's 
hearing for the Corps of Engineers Chief's Reports that have 
been completed and submitted to Congress since our last hearing 
in February. Mr. Chairman, I applaud your willingness to make 
sure that all of the pending Chief's Reports are eligible for 
inclusion in the new Water Resources Development Act and for 
your decision to hold the hearing today. Thank you.
    Since February, the committee has received completed Corps 
feasibility studies on the West Sacramento, California, flood 
risk management project; the American River Common Features, 
California, flood risk management project; and the Encinitas-
Solana Beach, California, shoreline restoration project; and 
also the Craig Harbor, Alaska, navigation improvement project.
    The addition of these 4 projects, it all brings the total 
to 28 pending Chief's Reports for the upcoming Water Resources 
Development Act. These important projects, that represent a 
diversity of project purposes and geographic regions, are the 
next generation of water infrastructure investment for our 
Nation. These projects all help to maintain and enhance the 
national, regional, and local economies in a variety of ways.
    For example, the Los Angeles River ecosystem restoration 
project seeks to reconnect the Los Angeles region with its 
river system, maintaining important flood damage reductions 
benefits, and it also promotes water quality improvement and 
conservation, ecological restoration, and increased 
opportunities for the citizens of L.A. to enjoy their natural 
resources.
    Similarly, the Everglades planning project represents an 
integral component to restoration of the Florida Everglades, 
again reconnecting the historical water flows from Lake 
Okeechobee--I will get it--to the Everglades, and provides the 
necessary elements to address the need for the clean, reliable 
water flows to the Everglades while also helping reduce 
contaminated flows to the St. Lucie and Caloosahatchee Rivers.
    Several projects to enhance navigation are also pending 
authorization by Congress, including the project for the Port 
of Brownsville, Texas, that has been awaiting congressional 
action since November 2014.
    Again, Mr. Chairman, I am pleased that we are discussing 
the pending Chief's Reports, and I would remind the chairman of 
the constraints we continue to face in utilizing Corps 
expertise on a host of issues within the Corps authority.
    While I recognize that a small number of additional Corps 
study and project modifications may be eligible for the 
forthcoming water resources bill, they are clearly the 
exceptions and not the norm. As I noted at our last hearing, 
Congress created a new process under section 7001 of the Water 
Resources Reform and Development Act of 2014, and that is to 
address a congressionally imposed earmark moratorium.
    Local sponsors argued that this new process is cumbersome, 
inefficient, and lacks transparency, and artificially restricts 
the ability of Congress to address the needs of the 
constituency. I would argue it also provides greater authority 
to the executive branch to make project and funding decisions 
that traditionally were the purview of the Congress.
    As we continue to rally this new process as a net benefit 
to the Nation and to our constituents, I believe we should ask 
ourselves what we have gained by this new process and what we 
have lost by the imposition of this earmark moratorium.
    Again, thank you, Mr. Chairman, for holding today's 
hearing, and I welcome General Jackson's testimony today.
    I would also ask unanimous consent that a letter of support 
submitted by Representative Doris Matsui for the West 
Sacramento and American River Common Features Chief's Reports 
be entered into the record.
    Mr. Gibbs. So ordered.
    [The statement of Congresswoman Matsui is on pages 28-29.]
    Mr. Gibbs. Thank you.
    At this time I would like to welcome Major General Jackson. 
He is the deputy commanding general for civil and emergency 
operations for the Army Corps of Engineers. And also 
congratulations on your new assignment as the deputy commanding 
general. So the floor is yours, General. Welcome.

 TESTIMONY OF MAJOR GENERAL DONALD JACKSON, DEPUTY COMMANDING 
GENERAL FOR CIVIL AND EMERGENCY OPERATIONS, U.S. ARMY CORPS OF 
                           ENGINEERS

    General Jackson. Good morning, Chairman Gibbs, Ranking 
Member Napolitano, and distinguished----
    Mr. Gibbs. General, could you pull the mic a little closer?
    General Jackson. I have never been accused of not being 
loud enough.
    [Laughter.]
    General Jackson. But thank you, sir. Chairman Gibbs, 
Ranking Member Napolitano, and distinguished members of the 
subcommittee, I am Major General Ed Jackson, the deputy 
commanding general for civil and emergency operations for the 
U.S. Army Corps of Engineers. Thank you for the opportunity to 
be here today to discuss the Chief's Reports that have been 
completed since our Chief of Engineers, Lieutenant General 
Thomas Bostick, last testified before you in February of this 
year.
    My written testimony includes more detailed descriptions of 
the three Chief's Reports and three project Post-Authorization 
Change Reports that have completed executive branch review 
since General Bostick testified before this committee on 
February 24, 2016. I will cover these projects briefly in my 
remarks today.
    Each of these proposed projects, with the Chief's Report 
cleared by the administration, falls within the main mission 
areas of the Corps, which include commercial navigation, flood 
and storm damage reduction, and aquatic ecosystem restoration.
    My written testimony also identifies Corps decision 
documents that are still under review by the administration, 
including 12 potential projects that have Chief's Reports and 4 
projects with Post-Authorization Change Reports.
    I would now like to provide a brief overview of the three 
proposed projects that have completed executive branch review 
since the previous testimony. The Army has previously provided 
the results of those reviews, along with the following project 
information, to the Congress.
    The ``Kansas Citys Levees Phase 2 Chief's Report'' was 
transmitted to Congress on March 30th of this year. This 
project reduces flood risk along the Missouri River and its 
tributaries at Kansas Citys both in Missouri and Kansas. The 
plan addresses the structural and geotechnic reliability of 
existing features, and increases the height of the existing 
levees and flood walls by as much as 5 feet. Based on October 
2015 price levels, the total initial cost for this project is 
estimated at $327 million.
    The ``Mill Creek Watershed Chief's Report'' was transmitted 
to Congress on March 18, 2016. This project reduces flood risk 
along Mill Creek in Nashville, Tennessee. The plan includes the 
construction of a 377-acre-foot capacity stormwater detention 
basin along Sevenmile Creek, modification of the Briley Parkway 
Bridge, and the widening of the Mill Creek Channel.
    Nine residential structures would be raised above the 1-
percent chance flood elevation, and 80 frequently damaged 
residential structures located on the flood plain of Mill Creek 
would be purchased and removed. Based on October 2015 price 
levels, the total initial cost for this project is estimated at 
$28.8 million.
    The ``Skokomish River Basin Ecosystem Restoration Chief's 
Report'' was transmitted to Congress on April 19, 2016. This 
project includes ecosystem restoration improvements in and 
along the Skokomish River in Mason County, Washington.
    Plans for ecosystem restoration consist of the removal of a 
levee at the confluence of the North and South Forks of the 
Skokomish River, installation of engineered logjams, 
reconnection of a historical side channel, and wetland 
restoration. Based on October 2015 price levels, the total cost 
for this project is estimated at $19.7 million.
    Section 902 of the Water Resources Development Act of 1986 
sets a maximum percentage cost increase for civil works 
projects. A further authorization is required to use Federal 
funds beyond the maximum authorized project cost. In these 
cases, the U.S. Army Corps of Engineers generally completes a 
Post-Authorization Change Report, which is provided to Congress 
if there is a recommendation for such a further authorization.
    There are three of these reports that have been completed 
since our last testimony in February: the Blue River Basin 
project located in Kansas City, Missouri; the Turkey Creek 
Basin project, located in Kansas Citys, Kansas and Missouri; 
and the Ohio River shoreline project, located in Paducah, 
Kentucky. All three are important flood risk management 
projects which have completed executive branch review.
    I would also like to take this opportunity to provide a 
brief update on the ``2017 Report to Congress on Future Water 
Resources Development,'' as required by section 7001 of the 
Water Resources Reform and Development Act of 2014. The notice 
requesting proposals by a non-Federal interest for proposed 
feasibility studies and proposed modifications to authorized 
water resources development projects is anticipated to be 
published in the Federal Register on May 19, 2016. The deadline 
for non-Federal interests to submit proposals to the Corps is 
120 days after the publication in the Federal Register, or by 
September 16, 2016.
    Mr. Chairman, this concludes my statement. I appreciate 
this opportunity to testify today, and I look forward to 
answering any questions that you or members of the committee 
might have. Thank you.
    Mr. Gibbs. Thank you, General.
    At this time I want to yield to Chairman Shuster of the 
full committee.
    Mr. Shuster. Thank you, General. Thanks for being here 
today. As you might expect, I have been talking about the Upper 
Ohio River and the project up there in the locks for some time 
now. And I just appreciate the Corps' renewed attention to 
looking at that study, that project, because the first time, I 
think, as we have been researching since we had these internal 
reviews for about 12 years or so, it is the first time that a 
study has been completed and we are stopping it because the 
internal review said, oh, there are more benefits than the 
Corps allowed for.
    Typically, we go back because we have overestimated and the 
cost-benefit may not be as good as we thought. But in this 
case, again, the benefits are there. The cost-benefit is going 
to be greater. Everybody anticipates so. So again, I appreciate 
the Corps renewing their focus and attention on this to get 
this done.
    This has been in the works for, I do not know, 15, 17, 18 
years, and the time has come to have a good project, but I 
guess the fact is a better project than anticipated, to move 
forward. So we are looking forward to getting those studies 
done by early fall and being able to move this on this WRDA 
bill. So again, thank you for your attention on that, and I 
yield back.
    Mr. Gibbs. OK. General Jackson, I will start because I have 
got a couple questions. The first question, I think, is 
probably the most important question, at least it is to me. I 
always ask about these Chief's Reports and these Post-
Authorization Change Reports, and I also want to include these 
11 others you mentioned in your testimony--I think the question 
is always important because the Corps is going through this 
rigorous process, working with local communities and all that.
    But we as the oversight panel basically are not involved 
directly on it day to day. So I have to ask the question: On 
any of these projects that you mentioned in your testimony and 
you have reported to Congress since the last hearing in 
February, has there been any significant opposition to any of 
these projects? And if so, can you generally characterize the 
opposition?
    General Jackson. Mr. Chairman, there has been no 
significant opposition to any of the projects. We certainly go 
through the process where we do full public vetting. We look at 
every single thing that comes back to us and analyze that input 
to make sure that we are not missing anything and to make sure 
that we take into account the concerns of the public. But there 
has been no significant opposition to any of these projects.
    Mr. Gibbs. Good. That is good to hear. We got that taken 
care of.
    In your testimony, there are the two projects out in the 
Sacramento, California, area that are over $1 billion each for 
total costs. Can you describe to us what favorable benefits--
the cost ratios are 4.6 to 1 and 3.2 to 1, which are good 
numbers.
    But can you describe to us the benefits these projects 
provide since these 2 projects, of all the projects we are 
talking about in the 25 or 28 Chief's Reports we end up with, 
are a significant amount of money, pulling close to $3 billion, 
probably, total between the two. So I think we need to 
elaborate on those projects, what they are and what the 
benefits are, since they are such a big part of the bill for 
the funding side.
    General Jackson. Yes, Mr. Chairman. Thank you. Both of 
those projects are significant to the city of Sacramento for 
flood risk mitigation. I will talk about both of them.
    The West Sacramento, California, project will reduce 
average flood damages by about 85 percent to the communities in 
West Sacramento, which we think is significant. And the 
American River Common Features will reduce the average damages 
to the rest of Sacramento by about 73 percent, which we believe 
is significant.
    For each of the projects, the cost is high, but there is 
significant work that will be done. Significant work in terms 
of the numbers of miles of cutoff wall that will be placed in 
the levees. There will be a widening of features such as the 
Sacramento weir. There will be significant alterations to the 
levees themselves to make them more resilient, to include some 
levee raises, some armoring, and a lot of bank protection.
    The mileage counts on these are significant, for instance, 
the cutoff walls for the American River Common Features are 13 
miles alone; the levee cutoff walls within the Sacramento 
system, 18.5 miles all total, include the main stems and the 
tributaries that make up these systems. So significant work 
will be done. But we believe significant benefits will be 
accrued to protect the citizens in Sacramento.
    Mr. Gibbs. Great. I know you have a project in my district 
with about 1 mile of cutoff walls. Apparently there is new 
technology that has actually reduced the cost significantly 
from what they originally proposed. So hopefully that 
technology is being adapted nationwide.
    Mrs. Napolitano. Mr. Chair?
    Mr. Gibbs. Yes?
    Mrs. Napolitano. I have got to mention that Sacramento is 
the capital, and it is very, very important to the people 
there. They have had floods, and really, it would be very 
helpful to get this done.
    Mr. Gibbs. OK. On these projects that we have put forth, 
the Chief's Reports, is there any concern about the non-Federal 
sponsors being able to uphold their end of the cost-share 
agreement?
    General Jackson. Sir, as we get through our feasibility 
study process, this is one of the areas that we look at very 
closely. We want to make sure that where we have a Federal 
investment recommendation, there is a non-Federal cost-share 
sponsor that is able to and committed to meet their 
obligations. And in each of these cases, the non-Federal 
sponsor is able to provide their portion of the cost share.
    Mr. Gibbs. OK. On the section 7001, how we do the reports 
to Congress now of projects proposed, projects out there, the 
law says that it has to be submitted to Congress by May 1st. 
The Corps was 18 days late. Was there a significant reason why 
you were 18 days late in submitting that 7001 report?
    General Jackson. Sir, I am not aware of a significant 
reason for that. Nothing with which I would need any 
assistance; it is internal processing that we just need to push 
our way through. So my apologies for that being late.
    Mr. Gibbs. Yes. If it was 18 months, I would really be up 
in arms. But 18 days, I just thought I would mention it.
    Anyway, at this time I will yield to Mrs. Napolitano, the 
ranking member, for any questions she may have.
    Mrs. Napolitano. Well, thank you very much, Mr. Chair.
    General Jackson, the Army Corps does a magnificent job in 
my area. Even though it is not germane to today's topic, in my 
State we are constantly searching for ways to increase water 
supply and encourage water conservation.
    And I have paid particular attention to actions that can be 
taken at the dams in my district, including Whittier Narrows 
and Santa Fe. Many dams are operated and maintained by the 
Corps. But they are authorized for other purposes other than 
water supply, such as flood control, navigation, agricultural 
water supply.
    But in my opinion, given the appropriate authorization, 
could measures be taken at the Corps dams, all Corps dams in 
California and other States, that would increase water supply 
capabilities?
    General Jackson. Yes, ma'am. With the appropriate 
authorization, we can work that through all of our projects.
    Mrs. Napolitano. Well, it is very clear that Mother Nature 
is playing a lot of tricks on us. So I think we need to start 
preparing for some of that.
    As you are aware, one of my top priorities, increasing 
water supply capability, is encouraging the adoption of water 
conservation measures in drought-prone areas. In your opinion, 
what more can be done by the Corps in the arid West to ensure 
that water that would otherwise go to waste is captured and 
made available for use or conserved?
    And further, could you please update us on the status of 
section 1064(a)(2)(A) of WRRDA 2014, a section requiring a 
report on water supply operations in the arid regions? And when 
do you expect to finalize implementation guidance of this 
section and complete the assessment?
    General Jackson. Ma'am, generally speaking, we operate our 
reservoirs in a number of ways based on their authorized 
purposes today. We have drought contingency plans that we 
continue to operate that provide a different level of 
management for our reservoirs in times of drought. We also have 
issued, as you well know, many deviations to our operations 
control manuals to account for different climatic conditions, 
whether it is drought or flood.
    And we are continuing to look at ways, and working 
specifically with L.A. County in your case, in how we can 
support the water conservation measures that are ongoing in 
L.A. County now through the different operations, different 
opportunities, that exist within our reservoirs in southern 
California.
    So there are a number of things, both at Santa Fe--I know 
we are looking with L.A. County at sedimentation and how we 
might be able to increase the capacity of dams through the 
removal of sedimentation that allows these facilities' 
structures to hold the water they were designed to hold. So 
there is some work that needs to be done there. And at Whittier 
Narrows, we are continuing to try to finalize the dam safety 
modification reports and studies that will allow us to address 
the problems there. That will then allow us to do more work 
with water conservation measures that are intended to be in 
place at Whittier Narrows. So we are going to continue to work 
with the county to try to maximize those opportunities.
    If it is OK, I would like to get back to you on the status 
of the implementation guidance.
    Mrs. Napolitano. Thank you. Will you report to----
    General Jackson. I have to flip through my pages to find 
the exact state of where that one is; I will get back to you on 
that.
    Mrs. Napolitano. Yes. If you would report to the committee. 
It is really important. I think eventually we will have to 
consider whether making it permanent for the Corps to have, as 
part of their focus, the water capture. And the sediment 
removal issue is a great issue, and with drought upon us and 
many other States, I think it is worth looking into.
    General Jackson. Yes, ma'am. I agree. And we have worked 
also with the Bureau of Reclamation. They are also taking a 
look at sedimentation in terms of their capacity to store 
water. So it is something that we are going to continue to work 
and use the science and technology that are available to us to 
come up with good solutions to optimize the capacities of those 
projects.
    Mrs. Napolitano. Thank you very much, Mr. Chairman.
    Mr. Gibbs. Mr. Webster?
    Mr. Webster. Thank you, Mr. Chairman, for holding this 
meeting. I do not have a question, but I would like to thank 
General Jackson for the State of Florida and the three Chief's 
Reports that have come forward. They are very vital projects 
that we look forward to working with you on--the one in Flagler 
County, which is in the northeast part of our coastal area, and 
the coastal protection we are going to work on there is really 
awesome for them and, in many areas, part of their economic 
engine.
    Then in Port Everglades, which I know Ms. Frankel is very 
interested in; she is down in that area, and has worked for 
decades trying to get that Chief's Report done. And that is 
going to be very, very vital to them and to that area. And it 
is an international trade gateway, and it is also a cruise ship 
haven and a great place. It is going to be a good project.
    And lastly, CEPP, the Central Everglades planning project, 
that is crucial. The Everglades are iconic, and what you are 
doing there is really going to be monumental for us and for 
Florida. And I think that restoring the heart of that area is 
something that Florida has been working on for a long time with 
you and the Federal Government.
    And then the last thing--I would just like to say that the 
authorization of those are certainly milestones for Florida, 
and they are going to be significant and very important to 
constructing them, but constructing them in a way that would 
reach into the future and certainly last for the future.
    And that is why I want to thank you for your commitment to 
resilient construction and the use of techniques that will 
allow these projects to not just last for current times, but 
for into the future, and would also sustain storms that come 
our way many times in Florida.
    And I look to continuing working with you on implementing 
what is in the current WRDA bill in that aspect because I think 
it is one of the most important things. You mentioned resilient 
here, and one other project here. I think those are important. 
So thank you so much for what you have done.
    And with that, I would yield back.
    Mr. Gibbs. Ms. Edwards?
    Ms. Edwards. Thank you very much, Mr. Chairman. And thank 
you, General Jackson.
    I actually do not have a question about the projects that 
are identified. But I want to go to the last part of your 
testimony, when you talked about the RFP [request for proposal] 
that is coming up for non-Federal projects. I think that you 
said that the publish date in the Federal Register is going to 
be May 19th, and then proposals submitted by September 16th.
    When our Maryland delegation met recently with our Army 
Corps district leaders, and it was very helpful to understand 
all the projects that were going on in the State, one of the 
things that came forward was that we are not receiving the 
level of non-Federal projects in this new environment, 
actually, for the last couple of years. And I am concerned 
about that. I know that I have sent letters out to all of our 
municipalities and leaders to try to get them to at least look 
at submitting projects.
    But my question is more what the Corps does to reach out at 
the local level to educate, to inform, to try to more 
aggressively seek out those non-Federal projects. Because the 
concern is that while I think there has been a lot of 
aggressive work to work through that is in the pipeline now, 
the question is, down the line, what will be in the pipeline? 
And that only comes when you do the feasibility studies and 
then the investigation.
    So I wonder if you could speak to that, and then more 
specifically, what is being done, if there is anything, in each 
district over the next several weeks to do that kind of 
outreach.
    General Jackson. Well, thank you for that question. I 
cannot address specifically what the Baltimore District is 
doing locally. I will find out, and we will close the loop on 
that.
    But generally speaking, we have mounted a significant 
effort because we realize that if we are not communicating the 
process, if we are confusing people with our process, or if 
people are not aware of the timelines, then we are going to 
miss a lot of great opportunities.
    And so we are very vigilant to that. We have, first of all, 
tried to make sure our own team knows what right looks like. So 
we spend a significant amount of time and effort internally to 
Corps of Engineers with our districts and divisions, making 
sure they understand the process, making sure they understand 
what they have the authority to do in terms of outreach to 
different communities and municipalities to help folks 
understand how to participate in this effort.
    So we have done a lot of that. We have also made sure that 
the Federal Register is updated with the right information. We 
have hosted a kickoff Webinar. We use multiple opportunities 
within social media, both at the district and division level 
and the headquarters level, to talk about this program and the 
milestones and the way that folks can participate in it.
    I get a lot of opportunities to speak to stakeholder groups 
in local communities as I travel around as part of my duties. 
We take the opportunity to talk about this program when we have 
those stakeholder meetings, local meetings, et cetera, to try 
to get the word out.
    I am a believer that there are always more ways to improve. 
And so we will continue to look at how we might do that better. 
And certainly we will work with your staff to make sure, if 
there are some gaps in our process or our communications plan, 
that you see or your staff sees, we certainly want to take 
advantage of closing those gaps with increased communication.
    We believe this is a good program. But again, like all 
things, we can always do better. But we are committed to making 
sure that everyone understands these opportunities and how they 
participate, and that we make sure our communications gets out 
to the lowest level to sweep up all these great opportunities 
that you describe.
    Ms. Edwards. But just as I close, is there a reason that 
there has not been a new study approved by resolution since 
2010? That is a long time.
    General Jackson. Ma'am, I cannot address that. I will have 
to get an answer and close the loop with the committee.
    Ms. Edwards. Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Denham?
    Mr. Denham. Thank you, Mr. Chairman.
    General Jackson, the Army Corps of Engineers is currently 
finalizing the Lower San Joaquin River feasibility study, 
expecting a Chief's Report out at the end of the year. There 
has been an ongoing dispute about Army Corps personnel and 
local officials over the inclusion of a reclamation district. 
We refer to this reclamation district as RD-17 in the final 
Chief's Report.
    I do not expect you to know all the details about one 
single irrigation district. My question is more along the lines 
of the thinking of the Army Corps both on flood protection, but 
also on new Government expansion and the development within 
those different areas.
    It is my understanding the Army Corps personnel are 
interpreting an Executive order that specifically is set up to 
discourage growth or development. But in this reclamation 
district I am talking about, it currently is the home of 46,000 
Americans, a county jail, a county hospital, 8 schools, 9 fire 
stations, 8 police stations, and also is home to Sharpe Army 
Depot, which has an Army Reserve unit, a Marine Reserve unit, 
and is an active duty Army base.
    So we are, as a country, denying flood protection in an 
area that not only has housing and schools and fire 
departments, but also has a Federal active duty base that is a 
logistics base to the Pacific theater, as well as this is going 
to be the newest VA [U.S. Department of Veterans Affairs] 
facility, VA hospital, in the country. It is one of the next 
ones that will be built. Army Corps is the one that is going to 
be in charge of building this new facility.
    So on one hand, the Army Corps is interpreting an executive 
decision that will discourage growth and deny flood protection 
in an already existing area and an existing active duty base, 
and on the other hand the Army Corps is going to build this new 
VA hospital. We are expecting it to come in on time and on 
budget. But if you are not going to provide the flood 
protection, I assume you will have to change the criteria of 
this new VA facility, which will, if you are changing the 
criteria, obviously run up costs and delays.
    I would like an answer on what your philosophy would be on 
both the flood protection side of this, Corps responsibility to 
the Corps; but secondly, on a new VA facility that the Army 
Corps will now be constructing.
    General Jackson. I cannot talk specifically about that 
project because I do not have all the details. But I will 
certainly follow up with you on that.
    Philosophically, I think the Corps takes every opportunity 
and responsibility for our role in Federal flood risk 
management seriously. So I am not sure how our local district 
or our division is interpreting an Executive order, but that is 
certainly something that we at the headquarters level will dig 
into after this hearing and get a response back to you on that 
because we certainly do not, as an organization, want to take 
any position where we discourage growth. In fact, I think what 
we do very well in the Corps of Engineers is find opportunities 
to meet all the competing requirements that will allow us to 
grow our economy and allow communities to prosper. So I owe you 
some feedback on your specific issue.
    And on the Veterans Administration facility, certainly that 
comes into play, as does a Federal installation, but no 
different than a community, in my mind, in terms of our 
responsibilities to take a hard look at the problem set. So if 
you would be willing to let me come back to you on that and 
give you a more details answer and clarify where we may have 
some confusion in the lower part of our ranks, I will be glad 
to do that, sir.
    Mr. Denham. Thank you. Specifically, I would like you to 
get back to me on this Lower San Joaquin feasibility study as 
well as RD-17, the 200-year flood protection.
    But let me follow up with one final question. So the Army 
Corps is now, I believe for the first time, going to be 
building--the VA has not done a great job of controlling costs. 
So we are looking forward to the Army Corps stepping that up 
and controlling costs. The question would be: How do you 
control costs if the Army Corps is not creating flood 
protection and now instead is going to develop a VA facility? I 
assume that you are aware of the new rule of building VA 
facilities. If your number one project is going to have 
changes, how do you control those costs?
    General Jackson. Well, sir, we will control the costs with 
the VA program that we have been given the responsibility to 
execute as we would for any of our other projects. I think one 
of the things that we are looking at in our designs in general 
is how to make buildings more resilient. And I do not know the 
specifics of where this VA hospital is located with regard to 
the flood plain.
    Obviously, levees and flood protection are a multilayered 
array for us. We certainly use structural measures, such as 
raising different parts of the VA hospital, or putting 
mechanical systems on a higher floor, as part of our standard 
design to account for other contingencies, and layers of 
protection with our flood risk management program.
    So I will get back to you on the specifics of how this is 
designed based upon where it is situated on the ground in 
relation to the flood plan that you described, and also will do 
that in line with the answer to where we stand on the flood 
protection issues, for the communities that you are talking 
about.
    Mr. Denham. Thank you. And just in closing, I would like to 
invite you out to the area. I think it is a very unique 
opportunity, since we have the new VA facility as well as 
Sharpe, as well as going with this new feasibility study. As 
your time permits, we would love to invite you out.
    General Jackson. Congressman, thank you very much.
    Mr. Denham. I yield back. Thank you.
    Mr. Gibbs. Ms. Johnson? No questions?
    Ms. Johnson. No. No questions.
    Mr. Gibbs. Ms. Esty, then?
    Ms. Esty. Thank you, Chairman Gibbs and Ranking Member 
Napolitano, for holding today's important hearing to review the 
U.S. Army Corps of Engineers Chief's Report.
    Today's hearing is an opportunity for us to find new and 
creative ways to approach solving our water resources 
challenges. And one of the challenges that we face in my home 
State of Connecticut is flood mitigation. Flooding in 
Connecticut illustrates how flood prevention and mitigation 
efforts are important to our economy.
    It is particularly true for Connecticut's Fifth 
Congressional District that I represent, especially for the 
city of Meriden. The city of Meriden has experienced eleven 
100-year floods in the last 150 years, accumulating $26 million 
worth of property damage as the result of two floods alone in 
the 1990s.
    So we have made an application, the city, for a Continuing 
Authorities Program project. But the program is substantially 
oversubscribed and underfunded. Obviously, it is our 
responsibility in Congress to deal with the underfunding point. 
But I do want to note that in the last WRDA reauthorization, 
the Corps was required to publish criteria for prioritizing 
Continuing Authorities Program projects, and to annually report 
on the status of those projects.
    So I am asking--and I realize you may not, given the 
subject matter today being on the Chief's Reports--but would 
like, if you could get back to me, if not today, on what is the 
status of that program? What is the status of the 
prioritization criteria that are being used for these important 
projects? Thank you.
    General Jackson. Yes, Congresswoman. I will be glad to get 
back to you on that. Thank you.
    Ms. Esty. Thank you. Really appreciate it. And again, these 
Chief's Reports are very, very important. But for smaller 
projects where Federal funding can provide that linchpin to 
bring funding together from local communities, State, everybody 
pitching together, that is the way we are going to get a number 
of these important projects done.
    And we're matching Department of Transportation, HUD [U.S. 
Department of Housing and Urban Development] funds, State, 
local, and we have got a critical funding piece we are still 
trying to fill in. And it is a perfect opportunity for a CAP 
[Continuing Authorities Program] project, but again, we know it 
is oversubscribed, and we would really like help in 
understanding the criteria that you are using.
    And again, thank you for your work. And my grandfather 
helped supervise these projects of building locks and dams on 
the Mississippi River in the 1940s and 1950s, so I come with 
decades of appreciation for the important work that you do. And 
I want to thank you for appearing before us today and for the 
work you do every day to help keep our citizens safe and 
properties intact. Thank you very much.
    General Jackson. Thank you, Congresswoman.
    Ms. Esty. With that, I yield back.
    Mr. Gibbs. Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman. I am glad to follow my 
colleague Ms. Esty because as someone who represents part of 
the Mississippi River, unfortunately your grandfather is one of 
the last ones to work on those projects. And ironically, that 
is part of my questions today.
    I was very disappointed, General Jackson, to see that the 
President did not put a request for funding for NESP 
[Navigation and Ecosystem Sustainability Program]. As you know, 
this funding, if it would have been requested, if we can get it 
implemented, would continue to design and engineer the upgrades 
along the Mississippi and Illinois River waterway systems.
    And even in 2010, the Corps, you, and industry, jointly 
listed one of those projects, La Grange, as a priority 
authorized project. And yet here we are once again with no 
money in the President's budget. So how much of a priority is 
the Upper Mississippi system in the Corps' priority list?
    General Jackson. Congressman, those requirements are high 
priorities for the Corps. I know that we have been asked by the 
administration to go back and take a look at a few things, 
which we are attempting to do. That will help inform a future 
way ahead on investments on those systems.
    Mr. Davis. OK. If you are truly serious about moving these 
priority projects forward, then can you tell me why the 
President did not request a single dollar in his budget?
    General Jackson. Sir, I cannot answer that question.
    Mr. Davis. OK. On to a brighter subject. Just recently, we 
worked to pass a bill, H.R. 3114. I worked with my colleague, 
Mrs. Napolitano, to permanently authorize the Corps of 
Engineers to continue funding the Veterans' Curation Program.
    I had the opportunity to visit the Veterans' Curation 
Program in the St. Louis District twice, meet some of the 
veterans that it is helping to move into the curation career, a 
career in curation and other fields, other related fields. Can 
you give an update to this committee on the Veterans' Curation 
Program and what the implications of permanently authorizing 
funds for the program will be?
    General Jackson. Sir, I cannot give you specific details. I 
am not prepared to do that today. But I can follow up with the 
committee and provide some significant details on that.
    I would like to just say to the committee, thanks. As a 
veteran, and I know there are many veterans here today, I 
appreciate everything that the Congress does to help our 
veterans transition, both Wounded Warriors and those who are 
leaving service, to find meaningful employment where they can 
continue to serve. So, sir, thank you for your efforts and 
leadership in bringing that to bear.
    Mr. Davis. It was a pleasure to work with the Corps of 
Engineers and also Mrs. Napolitano on this important subject. 
And I hope you are able to implement this program permanently 
very quickly. As we move forward, I am pleased to see that the 
Senate is going to take up our bill. They just move things even 
a little bit slower than us, but sometimes not as slow as some 
agencies.
    Are you familiar with the NGA's [National Geospatial-
Intelligence Agency's] proposed site in St. Louis, Missouri, 
and the process that that decision went through?
    General Jackson. Congressman, I am not familiar with that, 
no.
    Mr. Davis. OK. Let me familiarize you with that somewhat. 
The NGA was selecting a site to be built in the Midwest within 
a 25-mile radius of the St. Louis area, which included an area 
that is adjacent to my district next to Scott Air Force Base. A 
Corps-completed study was utilized as justification during this 
process, and it was riddled with errors.
    As a matter of fact, there was a delegation, a bipartisan 
delegation, that met with the NGA officials and the Corps of 
Engineers officials just last week on the Senate side, and I 
specifically asked the individuals there to make sure the next 
time anybody from the Corps was here, that they were fully 
briefed on this.
    This study included a St. Clair County that was adjacent to 
a river that does not exist in St. Clair, Illinois. I mean, the 
study was so bad and error-filled that even the director of the 
NGA said he did not even use the study to make his final 
decision.
    The Corps needs to take a serious look. If you are going to 
be the experts, the issue area experts, on where to locate 
Federal agencies like the NGA, get it right. This is 
unacceptable and will be completely unacceptable in the future 
to see something like this happen again. We cannot move rivers 
to St. Clair County, Illinois, to match up with your studies.
    That needs to be fixed, and it needs to be fixed yesterday, 
because that is an important project that could have and should 
have had better consideration on the Illinois side for the 
security that the NGA needs. And instead, your study, that was 
flawed and failed and error-ridden, was used to move it to a 
different location.
    So I would hope that in the future when you come back, I 
will ask you about that study again, and I would like some more 
detailed answers as to why the errors were in there and why 
that was not edited before it got to the point where it was 
used as part of the decision.
    So with that, General, go ahead.
    General Jackson. No, Congressman. I just wanted to say 
thank you for bringing that to my attention. I am not aware of 
that report. I certainly will follow up, get more details, and 
I will follow up with you and then be prepared to talk the next 
time we have the opportunity. Thank you.
    Mr. Davis. Thank you. Yield back.
    Mr. Gibbs. Ms. Frankel?
    Ms. Frankel. Thank you, Mr. Chair. Thank you, General, for 
being here.
    I want to follow up on Mr. Webster's--from Florida--his 
comments. First, I agree with him. Thank you. We finally have 
some projects that we got the Chief's Report. But it seems to 
me what I am learning is you have to really live a very long 
time to see these projects through because there always seems 
to be some kind of roadblock.
    I want to ask you first about some of the Everglades 
projects, which are very important to Florida, because it is 
our drinking water, basically. And specifically, the Broward 
County Water Preserve Areas and the Biscayne Bay coastal 
wetlands, they were authorized under WRRDA 2014.
    Now, the projects are somewhat stuck, we are being told, in 
the PPA [project partnership agreement] phase. My question to 
you is this. Does the Corps require that money actually be in 
the President's budget for construction and for executing these 
agreements before these agreements are completed?
    General Jackson. Yes, ma'am. We are required to have funds 
available before we commit the Federal Government to a contract 
or any other such future expenditure. We are not authorized 
without the proper authority.
    Ms. Frankel. OK. So that is what--and how long does it 
usually take to get one of these agreements ironed out?
    General Jackson. Let me reach back to my smart guys back 
here.
    [Pause]
    General Jackson. We will get back to you on specifics. But 
the bottom line is we have model agreements that we have used 
over time for a lot of different PPAs that allow us to move 
much faster. Many of the projects--and I am somewhat familiar 
with the Everglades projects because of my recent command in 
the South Atlantic Division are very unique and very 
complicated and do not quite fit in the model PPA construct. So 
they take a little bit longer to put together and to get 
approved through the administration.
    But we do have a standard that we use to try and make it go 
faster. And then where at all possible, we try to fit these 
agreements into these models so we can get them done more 
quickly. But they do not always fit.
    Ms. Frankel. OK. Because it sounds like it could actually 
expand the amount of time that it takes to get something done.
    General Jackson. We are trying not to. We are trying to use 
these agreements as a way of expediting things.
    Ms. Frankel. All right. Now I want to talk about Port 
Everglades, just as an example, but it would be a question that 
would probably apply to many, many authorized projects once you 
get a Chief's Report.
    As my colleagues have heard me say before, it took about 18 
years to finally get the Chief's Report for Port Everglades. 
But thank you. We got it. And I know in obtaining the Chief's 
Report, the project has to go through a cost-benefit analysis 
and has to meet certain criteria before it gets the seal of 
approval from the Army Corps.
    Now what we are learning is that OMB [Office of Management 
and Budget] uses a different formula for its cost analysis. So 
after spending 18 years, millions of dollars going through the 
process, if OMB changes the formula, they can actually stop a 
project. And it does not make sense to me that everybody is not 
on the same page. Does it make sense to you?
    General Jackson. No, ma'am. I know exactly what you are 
referring to. For the administration to budget a project, it 
has to meet a 2.5 BCR [benefit to cost ratio] at a 7-percent 
discount rate. That is how the administration budgets for 
projects.
    When we take a look at projects, for us to recommend a 
project as an investment to the Congress, it has to meet a 1 to 
1 benefit-cost ratio. That is what we are looking at. We have 
communicated this with the sponsor so they understand what the 
Federal Government can do. We looked for different ways to 
increase and improve the benefit-cost ratios, obviously, as we 
are doing for other studies, like Upper Ohio, to try to allow 
it to meet the budget criteria for the administration. But that 
is where we are right now.
    Ms. Frankel. Does that make sense to you? It just does not 
make sense. I do not get it. Why would you use one criteria for 
18 years and do all that work, and then all of a sudden the 
criteria changes with another agency.
    General Jackson. Ma'am, I do not know the history of how 
that came into being.
    Ms. Frankel. Well, Mr. Chairman, it sounds like a flaw to 
me. A flaw. A flaw in the system.
    Thank you. I yield back.
    Mr. Gibbs. Yes. Which probably needs some discussion 
because OMB has a different rate than the Corps, and than the 
committee, Congress, does, too. I believe there are three 
different cost-benefit ratios.
    Mr. Rokita?
    Mr. Rokita. I thank the chairman for having the hearing.
    I just want to say to General Jackson, I look forward to 
working with you. I am a new member of this committee, and the 
only one from the majority party in Indiana, although 
Representative Carson is also from Indiana on this committee. 
And we look forward to working with you, not just on behalf of 
Indiana, but on behalf of the Nation, to get this cleaned up 
and working more efficiently and better.
    And I like to be a glass-is-half-full guy, so I am just 
going to welcome you and take it that, and look forward to 
working with you.
    General Jackson. Thank you, Congressman. Look forward to it 
as well.
    Mr. Rokita. And I yield back.
    Mr. Gibbs. Mr. Garamendi?
    Mr. Garamendi. Thank you, Mr. Chairman. We were discussing 
OMB here, and that is a long discussion for which there is no 
clear answer.
    I do want to thank the Corps for bringing along the West 
Sacramento project. This is a project in West Sacramento, in 
Yolo County, 53,000 residents in a dangerous situation trying 
to bring the levees up to 200-year standard, which is the State 
of California requirement for urban areas. And I appreciate the 
Corps getting that done. Also, since I have 1100 miles of 
levees in my district, there are a lot of other projects that 
we have worked with the Corps on, and we are thankful for their 
support.
    So I do just want to point out the West Sacramento project. 
I know it is being reviewed. And it drew me into this OMB 
discussion between my two colleagues on either side, who seem 
not to understand how that works, nor do I.
    There is another project that is here, which is out of my 
district, but it is San Francisco Bay, the Bay Shore project in 
the South Bay of San Francisco. There is a piece of this that 
is very, very important. It is not specific here, but I draw 
the committee's attention to it as well as the Corps'. And that 
is the dredging spoils from the Port of Oakland and other ports 
in the area are normally disposed of off the shore of Alcatraz, 
where it goes out into the ocean and becomes part of the San 
Francisco Bay Bar problem.
    But we would like to have those spoils used for 
environmental restoration in the San Francisco Bay area. There 
is a cost differential, and we need to keep this in mind that 
the spoils are actually a very valuable asset. And to waste 
them by simply disposing them in the open ocean, or near open 
ocean, seems to me to be a waste of a valuable asset, and it 
would be much better to endure the small additional cost to use 
those spoils as part of the restoration programs in and around 
the San Francisco Bay area, and also the delta of California, 
the Sacramento-San Joaquin Delta.
    So I draw the committee's attention to that. I will be 
making more discussion of that as it goes forward, together 
with my bay area colleagues. And I suspect this is an issue for 
other parts of the Nation. It has to do with the way in which 
the Corps attempts to achieve the lowest cost, but not 
necessarily the greatest benefit.
    So with that, I will leave it to all of our attention. And 
when the time comes, I will pound the table. Thank you so very 
much.
    Mr. Gibbs. Ms. Norton?
    Ms. Norton. Thank you, Mr. Chairman, and thank you, General 
Jackson, for being here.
    I want to ask you about a line item in the Army Corps 
budget for the District of Columbia Potomac and Anacostia 
Rivers drift removal of $875,000. Could you describe this 
project and where you are in the process, what it will 
accomplish?
    General Jackson. Congresswoman, I am not familiar 
specifically with the drift removal project. But I can 
certainly follow up with you and your staff on all the details 
of that immediately after the hearing.
    Ms. Norton. I will submit you some questions on that. We 
are very interested and concerned. Eighty percent of the 
Anacostia watershed is outside of the District of Columbia, but 
all of the trash and refuse, of course drift, perhaps flow down 
to the bottom, which is where we are. So I will submit a series 
of questions, if the chairman will allow.
    I do have a question on the 17th Street levee, which was 
delayed, of course. But the most recent delay has come from, as 
I understand it, the National Park Service. The Army, though, 
has to submit its evaluation report to FEMA before FEMA can 
issue the map revision and publish a notice in the 
Congressional Record about the flood hazard determination, 
which of course is what the levee was all about in the first 
place.
    So I want to know whether the Army has submitted the 17th 
Street levee certification to FEMA as yet.
    General Jackson. Congresswoman, we have not as of yet. But 
we are scheduled to submit it to FEMA later this summer, 
probably in the July timeframe.
    Ms. Norton. Probably in July?
    General Jackson. That is what I am tracking. Yes, ma'am.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Gibbs. General, I have a few more questions.
    In October 2014, the Corps of Engineers Civil Works Review 
Board met and approved a Chief's Report related to three 
replacement navigation locks in the Upper Ohio River system. 
And while at one point the draft schedule showed the Chief's 
Report being signed in January 2015, there has been no Chief's 
Report submitted to Congress.
    Since the Corps suggested that the failure of any of these 
three existing locks would be catastrophic to the inland 
navigational waterway system, can you update the status of 
where this Chief's Report is or what is going on with it?
    General Jackson. Yes, Mr. Chairman, I can. We are in 
receipt of the revised report, which we are evaluating in our 
headquarters right now as we speak. The process that happens 
after we finish our parallel review is it will go back out for 
State and agency review, and then it will come back. It does 
not go back to the Civil Works Review Board. And as Chairman 
Shuster mentioned earlier in the hearing, we expect in early 
fall to have a Chief's Report signed on that.
    So we are committed in calendar year 2016, as soon as 
possible, to finish that project and get that Chief's Report 
signed.
    Mr. Gibbs. OK. A followup question I have is regarding the 
current practice of getting a completed Chief's Report. Do you 
feel there are any steps that could be removed to help 
accelerate the process? For instance, we implement the 3x3x3 
procedure.
    What steps do you see reducing or avoiding this--has there 
been any significant impact in the practice or culture of the 
Corps to be able to cut down on the backlog in studies? And 
what is the status of the backlog in studies? Are we making 
progress, or do we need to adjust that 3x3x3, or just tweak it, 
or do something?
    General Jackson. Mr. Chairman, I think the planning process 
has undergone significant change, and to the better. I think we 
have a number of Chief's Reports that we have been able to get 
pushed through the system much faster since 3x3x3 was 
implemented. And we realize that not every project is going to 
meet a 3x3x3 construct, and we take those on a case-by-case 
basis as opposed to making something other than that be the 
case-by-case basis.
    We are doing a number of things inside the Corps to address 
the issues that you talked about. We are continuing to train 
our plan formulators and our leaders to understand the ways 
that we can bring these feasibility reports to completion much 
quicker.
    We are doing a lot of other things that we have 
incorporated in our planning modernization process, like 
incorporating the other Federal resource agencies earlier in 
the process and making sure we have the benefit of their 
perspectives as we start scoping a project in its early phases.
    We have eliminated a lot of the sequential review process, 
and we are doing more of a parallel review process to be able 
to get things done faster, integrating our vertical team from 
the headquarters all the way down to the district level to be 
able to make decisions more timely and try to eliminate 
redundancy in the staff.
    Mr. Gibbs. Let me ask a followup on that 3x3x3. One of the 
things we did on that was on projects, the Corps is the lead 
agency to start the studies and do all that, and other Federal 
agencies that may want to be involved have to be involved from 
day one. Are you seeing a cooperative relationship with Fish 
and Wildlife? Interior? Have you seen a cultural change since 
we implemented WRRDA 2014?
    General Jackson. Yes, sir. We have great relationships with 
all the resource agencies, and we work very closely together to 
try to deliver these projects. And so I believe we have good 
collaboration with all the Federal resource agencies.
    Mr. Gibbs. Now, the other major change we made since we 
have had the earmark moratorium is the Corps has to also be the 
lead agency working with local stakeholders and bringing those 
challenges. Have you seen an awareness out in the countryside 
of local governments, port authorities, local stakeholders, 
have more of an awareness of this new process and working with 
the Corps to bring things to the Corps' attention, a 
partnership there? Have you seen a change in that respect?
    General Jackson. Sir, as I make my rounds around the 
country talking to different groups--port authorities, industry 
stakeholder groups--we talk a lot about 3x3x3. And we have been 
talking about that for several years now. My gut feeling is 
that everybody really understands it.
    They understand why it is good. Sometimes they are 
concerned, especially if they have a project that is very 
complicated and they do not think they can get it done in 3 
years. But we work with them individually on a case-by-case 
basis, based upon the complexity and the scope of the project, 
to address it through waivers and such.
    But I believe that, by and large, everyone understands what 
we are trying to accomplish and how we need to do that and what 
their role is.
    Mr. Gibbs. That is just an ongoing challenge, obviously, 
when you make a fundamental change like that.
    General Jackson. Yes, sir.
    Mr. Gibbs. That is why I bring it up, I guess. So keep it 
on the top of your mind that it is a challenge we need to work 
on because that is how the process needs to work, has to work.
    I also want to thank you for reprogramming and funding to 
fix the flawed economic analysis at the Soo lock. This project 
is vital to protecting our Nation's steel manufacturing 
industry and the region's economy, obviously. Can you describe 
to me the plan, the budget, to maintain the 48-year-old Poe 
lock and the 73-year-old MacArthur lock as we work towards a 
new lock, and what that status might be?
    General Jackson. Yes, sir. We are continuing to do risk-
informed analysis of the Soo locks, as we do for all of our 
infrastructure, to determine what the highest risk of failure 
is for each of the components. And we work that into our 
budgeting process. We work that into our maintenance plans that 
we implement across the Nation for all of our infrastructure.
    So we feel we have a pretty good plan to keep Soo locks up 
and operational while the major rehab report and the economic 
analysis come to closure in 2017.
    Mr. Gibbs. So you think after 2017 we will actually have a 
timeline on the replacement lock?
    General Jackson. Sir, I think in 2017 we will have enough 
information to be able to make an informed investment 
recommendation to the administration. And that is our goal on 
where we will go from there to address the challenges at Soo 
lock.
    We all, and you and I, have spoken about this privately. We 
understand the strategic significance of the Soo lock. It is a 
major focus for us, and we are putting all the effort in to 
make sure we have the best information so we can make a good 
recommendation to the administration on the best way forward.
    Mr. Gibbs. Yes. Obviously, I am very concerned. It is a 73-
year-old lock, and we saw, some of the staff, some of the locks 
replacement at Paducah on the Ohio River system. I can only 
imagine what would happen up there if we have a failure, and 
the impact it would have to the country is significant.
    At this time I yield to Mrs. Napolitano if she has any more 
questions. And I have a couple after you.
    Mrs. Napolitano. It is just a general thing that comes to 
mind. Would there be more Chief's Reports if you had more 
budget?
    General Jackson. That is a tough question, ma'am. I think--
--
    Mrs. Napolitano. Are there projects, in other words, that 
are hanging fire that should have been or could have been, but 
you are not able to get them on?
    General Jackson. I think there are a lot of great projects 
that are out there. As we spoke early in the hearing, the 
challenge is that we want to make sure that we understand all 
of them, where they all are, and that we find some way of 
prioritizing which ones are the most urgent. Then we can apply 
the resources that we have in our headquarters, and across the 
Corps of Engineers, to be able to evaluate and scope these 
feasibility studies so we can actually bring them to a point 
where we can make an investment recommendation that makes sense 
to the Congress. So I think we are doing well in the program 
that we have now.
    Mrs. Napolitano. With what you have got?
    General Jackson. I think that we will just continue to try 
and bring as many as we can possibly bring to the Congress for 
recommendation as they present themselves.
    Mrs. Napolitano. Great. It sounds like a marvelous way of 
doing things. But I still think that there are other projects 
that could be done if you had the ability to fund them.
    Thank you, Mr. Chair.
    Mr. Gibbs. Mr. Bost?
    Mr. Bost. Thank you, Mr. Chairman.
    And I was not here a while ago. I had to run out to another 
meeting. But I understand that Rodney Davis, Congressman Davis, 
touched on an issue that is very concerning to my district and 
where he bumps up against that district. And that was on a 
report that was given the by Army Corps of Engineers in regards 
to the placement and environmental impact study that was given 
for the placement of the NGA.
    With that, there were, in the report, three different 
counties from three different States, and only one of them was 
the county that was in question. In the report, it was St. 
Clair County, Illinois, that was supposed to have the 
environmental impact study on it. St. Clair County, Missouri, 
and St. Clair County, Michigan, were both mentioned in the 
report, even to the point there was a river put in the report 
that does not exist in St. Clair County, Illinois, which then 
affects the decision that is made.
    My real concern is in an agency like yours, which I have 
had some very positive things while working on the river and 
everything like that, what is your response when a report like 
that comes out and affects the overall mission of another 
agency, and the concerns that we have? And then it was kind 
of--when we met with Senator Durbin and Senator Kirk, it was 
kind of a flippant, like, ``Oh, well. That is really not that 
important.'' And that was a concern that I had. And where is 
your response?
    General Jackson. Congressman, I appreciate you bringing 
that to my attention again. Congressman Davis talked at length 
about that. I do not have the specifics of that report, but I 
will commit to digging into more details and trying to give you 
the story on what that is and how that became the way it is.
    I can tell you that we in the Corps are committed to 
quality. And where we find that we are not meeting quality, 
where we find that we are not meeting our commitments to our 
elected Members and potentially making as though it was not a 
big deal, we take that very seriously. I will take a hard look 
at the specifics of this and try to understand why it occurred.
    But certainly we are committed to excellence in all that we 
do. We go to extensive efforts to train and educate all of the 
folks that work for the Corps in very, very technical 
specialties. We have multiple layers of quality control and 
quality assurance for the reports that we submit. But that is 
not to say we do not make mistakes from time to time.
    So this is obviously, as you have described, something that 
we need to look into and figure out what happened and make sure 
that it does not happen again.
    Mr. Bost. And let me tell you the importance of that, and I 
think you know this already. But the concern is that, one, 
where the negative site reflection was on and where the 
positive site was reflected upon on the overall review, there 
is concerns from the community from a former person who 
actually worked for the Corps that now works for the community 
where the other site is to be located.
    Now, I am not saying it is. But I am telling you that the 
communities feel that way. And as their Representative, that is 
very difficult to try to explain. And I would like to also find 
out if all of that was true as well because that reflects bad 
on your agency. It reflects bad on us as a Government that is 
trying desperately to locate a facility that needs to be secure 
for not only when it is first built but into the future, 
because the NGA is vitally important to our mission no matter 
which agency you are with, and for the security of this United 
States. So if you could get back with me on that, I would 
appreciate it very much.
    General Jackson. Congressman, I will definitely do that. So 
thank you.
    Mr. Bost. Thank you. I yield back.
    Mr. Gibbs. I just want to interject a little bit, with a 
question on this. The Corps under law has the ability to do 
work for others, other agencies, and that is apparently what 
happened here. Was there a possibility there was a breakdown in 
communication between the Corps and this other entity, 
especially when you did the environmental impact study, that 
something happened here? Can you maybe----
    General Jackson. Mr. Chairman, without knowing the 
specifics, I cannot give you a very good answer on that.
    Mr. Gibbs. No. That is fine.
    General Jackson. My commitment to the committee is to look 
into this personally and personally give a response back to the 
Members. So I know myself what it is that occurred, and 
certainly what we are going to address what has happened, and 
certainly to prevent it from happening in the future.
    Mr. Gibbs. I think that is fair. But I think what it 
probably seems like on the surface what is going to happen is 
that the Corps is basically doing contract work and getting 
reimbursed. And then the question that comes to my mind is: 
What entity, the Corps or the other entity, has the 
responsibility for the security issues? And that is where I 
think something broke down.
    So I think this is important. I am glad two Members from 
Illinois brought this up.
    Ms. Frankel?
    Ms. Frankel. Thank you, Mr. Chair.
    I just want to pick up where I left off because I think one 
of the problems, as I see it, is that the inability of Congress 
to actually designate within the budget certain projects has 
led to this convoluted process, which gives way too much power 
to the Executive.
    And so just going back--because I am going back to Port 
Everglades again, which is--we spent all this time, and then 
this committee talked about it, and the Corps did a Chief's 
Report, and now it is going to get stuck in another process.
    But I want to give you another example. In 1996, back in my 
area in Palm Beach County, there was an agreement with the 
Corps--actually, in 1996, in the WRDA bill then, there was--it 
authorized the Corps to pay 100 percent of the construction 
costs of a sand transfer plant. And the agreement with Palm 
Beach County was that the county would then pay for the 
maintenance. And the maintenance of the sand transfer plant 
would actually save the Corps anywhere from $2 million to $5 
million every couple years. They would not have to dredge that 
area.
    So the cost of the plant was about $4 million, and the 
maintenance is about $300,000 a year. And that is a great deal 
for the Corps because the Corps saves a lot of money. But it is 
even a better deal because the Corps never paid for the 
construction. The county paid for the construction. So the 
county paid $4 million for the construction, and the county is 
maintaining it, saving the Corps, I estimated, anywhere from 
$30 million to $50 million in the last 20 years.
    Now, what are the county's options to get the money back? 
Can they sue the Corps? Or do they have to go through a 
complicated modification? Can Congress fix it? Well, if we had 
the ability to designate projects, we could fix it. And now 
this just seems very complicated.
    So here is my question, and I want to make it more generic. 
If there is a way for the Corps to save money--for example, in 
this case the dredging in order to maintain a channel--if there 
is a way for the Corps to save money with a different method 
other than dredging, shouldn't the Corps be allowed to pay for 
that?
    General Jackson. Ma'am, I do not have the answer to that 
question. I am sorry. Generally speaking, without going back--I 
have to go back and get more specifics on that project and what 
type of agreement was signed, whether it was a contributed 
funds, accelerated funds, advance funds, or what have you. 
Those are the only ones that I am aware of that we use with 
non-Federal sponsors to address funding shortfalls in the 
Federal appropriation that allows work to go forward.
    As it pertains to this particular project, I do not have an 
answer. But I will try to answer that to the best of our 
ability with you after the hearing.
    Ms. Frankel. OK. Thank you very much.
    And Mr. Gibbs, I would just again urge us to try to figure 
out--going back to my other point on this cost-benefit 
analysis--to try to figure out a solution to this. Because Port 
Everglades will not be the only project that is going to run 
into that.
    If the Army Corps is using a different cost-benefit 
analysis then OMB, they are spending--I went to the review 
process that you have where they put 40 people around the room. 
And I listened to how many different components of your Corps, 
how many different people were involved, and how many years of 
analysis. And it seems to me it is like a totally wasted deal 
if the OMB can just put the kibosh on it. It is crazy.
    All right. That is enough from me. I yield back.
    Mr. Gibbs. Mr. Babin.
    Dr. Babin. Thank you, Mr. Chairman. I appreciate it.
    General, thank you very much for being here today. I 
represent the 36th District of Texas, and I have been working 
with the Port of Houston Authority, which I represent, and the 
Corps of Engineers to address a navigation and safety and 
efficiency issue on the Houston Ship Channel at what we call 
the Bayport Flare. The Corps gave us some good news this week 
in that they completed the Post-Authorization Change Report, 
and section 902 cost limit determination. We appreciate that.
    I want to thank you and your colleagues at the Corps for 
getting this report to this stage and getting us closer to a 
solution to a problem that could wind up being a safety issue. 
It is my understanding that this report must now go to OMB for 
review. Since we are working to get a solution into the current 
WRDA legislation, has the Corps conveyed to OMB the importance 
of addressing this issue? And in your opinion, how long would 
you anticipate this review to take?
    General Jackson. Congressman, to address your first 
question, we have emphasized the importance. Secretary Darcy, 
who signs the transmittal letter over to OMB, fully understands 
the sense of urgency and what we are working with in this 
particular Post-Authorization Change Report. So she has 
articulated that sense of urgency to the administration as they 
begin their review.
    As to when OMB will release the report to Congress, I have 
no idea and could not answer that. But we will continue to work 
within the administration to get that released to the Congress 
as fast as we possibly can.
    Dr. Babin. Well, I would hope so, that if we could expedite 
this, we could get it into the WRDA. And it would certainly 
help us and give us some certainty in my port as well.
    General Jackson. Yes, Congressman.
    Dr. Babin. OK. That is all I have to say, Mr. Chairman. 
Thank you very much. I yield back. Thank you, General.
    Mr. Gibbs. I just have a couple questions. This is kind of 
a followup on my last series of questions, General.
    We talked about the 3x3x3 and streamlining to get more 
efficient. I should have mentioned, following up on this, that 
the 2016 annual report was vastly improved from the 2015 annual 
report. We had big problems with the first report. But in the 
2015 report, we had 114 projects that were requested, and in 
the 2016 we had 61 projects that were requested.
    So I guess that begs the question: This new process, is the 
Corps doing everything we can do to educate? Because we saw 
almost a 50-percent decline in the number of projects. Why do 
you think that is?
    General Jackson. Sir, I think because this process is 
really used to capture projects that we do not already have on 
the radar screen, and they only come through one time, I think 
that naturally, over time, you will start to get fewer projects 
than the initial tranche that came in.
    But I think this goes to what we mentioned before, we need 
to continue to communicate this effort. Because I am sure there 
are communities out there that are not aware of this program 
and how they participate. So we just need to continue to refine 
our ability to communicate and get the word out to see what 
other opportunities are out there, because I think there are 
some out that may not have been realized this year. But we will 
continue to search these out and try to get the word out.
    Mr. Gibbs. Because I know in the last year, when I have had 
various meetings with different colonels in different 
districts, I was noticing that some had a better handle on this 
than others, so I think there is a little work to do. And that 
is year-old data or observation on my part, but just so you 
know, there might be work internally just with----
    General Jackson. Mr. Chairman, I think you are right. It is 
constant. We have turnover of our colonels every 2 or 3 years, 
depending on whether they are lieutenant colonels or colonels. 
And most of these guys that come in have not served in the 
Corps before.
    So these are new and daunting issues that are hard to 
understand, and as an organization, we just have to continue to 
work the education piece. And fortunately, they are surrounded 
by civilians that understand this and are there for continuity. 
But there is constant vigilance required.
    Mr. Gibbs. OK. And probably my last question. The Chief's 
Report for the Green and Barren Rivers in Kentucky calls for 
the deauthorization of the project. This Chief's Report was in 
the appendix in the 2016 annual report. If this is a 
deauthorization of a project or a divestment of the project, 
why was the Corps required to carry out a Chief's Report for 
this?
    General Jackson. Mr. Chairman, when we come back to the 
Congress to request a deauthorization, we still have to go 
through a process that is very similar to a feasibility study. 
But it does result in a Chief's Report that gets signed with a 
recommendation to Congress recommending divestiture.
    So we do have to go through a process. As my staff has 
described it to me, it is not as expensive or nearly as 
complicated, but we still have to go through the same 
methodologies to make sure we understand what happens to a 
project when it is deauthorized.
    Mr. Gibbs. I know in 2014 we authorized to be deauthorized 
a whole list of projects that helped pay for the bill. And I'm 
not sure what the status is on that, on those projects. Do you 
know?
    General Jackson. Yes, sir. There are the two processes, as 
you recalled, the annual and the one-time deauthorization. For 
the one-time deauthorization, I think there was a total of 143 
projects that were about $14.26 billion that were submitted to 
Congress. And I believe the list was finalized for the one-time 
deauthorization in May. I'm not sure. I will have to go back 
and check to determine whether the Congress has received it. 
But our milestone is May for recommending the deauthorizations. 
And then the list--those projects, if approved, would be 
deauthorized effective November 2016.
    We also have the other process, section 1001, which is our 
annual deauthorization process. Again, we will provide a 
recommended deauthorization list to the Congress in September 
of this year, 2016. And if approved, that list would be 
deauthorized effective October 2017.
    Mr. Gibbs. Yes. I was just going say that my recommendation 
is we get a copy. I was going to request that you supply the 
committee with the projects that have been deauthorized, the 
dollar savings by doing that----
    General Jackson. Yes, sir.
    Mr. Gibbs [continuing]. And the numbers going forward to 
October, as you just mentioned.
    General Jackson. OK, sir.
    Mr. Gibbs. That would be helpful.
    [Inaudible exchange between Congressman Gibbs and 
Congresswoman Napolitano.]
    Mr. Gibbs. I think she is asking the question of the reason 
why we deauthorize stuff--because I think we did this in WRRDA 
2014 because a lot of those projects had been on the books for 
years. And some of those projects, they might have had merit 
when they were authorized years ago, but were never funded and 
never developed, obviously, and now they are obsolete. So I 
think that is a lot of it.
    In 2014--I know you were not involved with this, General--
but we were trying to ``clean up the books,'' so to speak, 
because we were told there was a cost, maybe a nominal cost, 
but there was a cost of keeping those on the books because the 
Corps had to report and include it in their administrative 
stuff.
    General Jackson. Mr. Chairman, you are correct. We have to 
keep our portfolio fresh. And there are a number of projects 
that, again, no longer have a purpose or no longer are 
relevant. And we just have to be constantly reviewing those as 
part of our annual deauthorization process, which is what we 
are doing this year to make sure we keep that fresh and keep 
ourselves focused on the most important studies for the Nation.
    Mr. Gibbs. And I appreciate that. But I think prior to 
WRRDA 2014, obviously we were not doing that. The Corps and 
Congress, we were not doing that, and that is why we had this 
huge stack of billions of dollars of possible projects. And we 
tried to clean that up. So we need to keep that in mind, what 
we did in WRRDA 2014.
    I am all done. Do you have anything else? OK.
    Well, thank you for coming in, General. It was a pleasure.
    We look forward to working with you in the future as you 
work on all of the good things that the Army Corps is trying to 
do out there in the countryside.
    Thank you, and this concludes the hearing.
    [Whereupon, at 11:31 a.m., the hearing was concluded.]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
 
 
                      [all]
                      
                      
                      
</pre></body></html>
